",
     - .. I"

                                           ..



                          MEDICARE COVERAGE OF

                         POWER- OPERATED VEHICLES





                      E1\VICEs.




                '0


                     lt""JO



                OFFICE OF INSPECTOR GENERAL
                OFFICE OF ANALYSIS AND INSPECTIONS
                                                     JULY 1989
          MEDICARE COVERAGE OF

         POWER- OPERATED VEHICLES





                   RICHARD P. KUSSEROW
                    INSPECTOR GENERAL




OAI- 02-8-'01110                         JULY 1989
                                EXECUTIVE SUMMARY


PURPOSE

The purose of this inspection was to determe      the effects of beneficiar-oriented marketing
of power-operated vehicles (POV s) on Medicare reimbursement and to review the appropriate­
ness of Medicare payments.

BACKGROUND

Power-operated vehicles ar thre-wheeled battery operated vehicles that resemble small golf
car. Under its durable medical equipment provision , Medcar covers small , relatively light­
weight POV s that have a short tuing radius and are appropriate for home use.

To qualify for a POV, patients must be unable to operate a wheelchair manually, and would
otherwise be confined to a bed or chair. Medicare requirs that the prescribing physician be
from one of four specialties, unless extenuating circumstaces exist , and that carer medical
staff review all POV claims.

The Offce of Inspector General (OIG) became concerned about POV reimbursement in 1987
when abuses were brought to its attention by a local Medcare carer. This experience re­
sulted in the issuance of an GIG Fraud Alert and conduct of this inspection.

METHODOLOGY

Two samples were utilzed: the first was a national random sample of 102 beneficiares who
were contacted by phone to determne their responses to supplier advertising and their role
obtaining the POY. Some physicians of these patients were also contacted for related informa­
tion. The second was a sample of eight Medicare carers; these were visited to examne their
policies and procedures for reviewing POV clais.

FINDINGS

Direct Marketing Of pov s To Beneficiaries Is Generating Demand.

      More than half of POV beneficiares intervewed reported they leared       about   POV s
      through television and other advertising.
      Thiry-seven percent learned about POVs from family, friends, and neighbors.
      Three- quarers of the beneficiares said it was their own or their family s idea, not that
      of a health care professional, to obtain a POV.
      Suppliers ar agressively marketing POVs. As an example, one- third of the
      beneficiares claim they were told they would not have to pay anything for the POV.
     Physicians are playing a passive role in prescribing POVs. This includes "going along
     with it, " signing the authorizations after the POVs are delivered in one-third of the
     cases, and having little knowledge of Medicare coverage guidelines.

Medicare Should Not Have Paid For A Majority Of POVs In 1986.

     Sixty- two percent of the POV beneficiares contacted apparently did not meet coverage
     reuirements. They said they could operate a wheelchai manually when they obtaned
     their POV, or they were using their POV exclusively outside their home.
     A review of carer supporting documentation showed most claims fail to document
     appropriateness.
     Six of eight carers failed to routinely utilze medcal personnel to review POV claims
     as requird.
     Thiry-one of 81 carer     cases   showed no information as to the specialty of the
     authorizing physician.
     A loss of $5. 9   milion for 1986   is projected.


RECOMMENDATIONS

To reduce inappropriate payments for POVs, HCFA should:

          and strengthen as needed carrr implementation of Medicare coverage
I. Evaluate
  requirements and the 1987 Omnibus Budget Reconciliation Act provisions to:

  a. use medical staf to review    each submitted POV claim for medical necessity,

  b. allow only certain specialists to authorize these claims or cite the reasons for exceptions
     to this rule,

  c. ensure that payments ar made only for beneficiares whose medical and/or physical
     conditions render them unable to use a wheelchair manually and who need a POV for in­
     door use, and

  d. prohibit payment for durable medical equipment unless suppliers receive a wrtten     order
     from a physicians before the delivery of the item to the patient.

2. Publicize Medicare coverage requirements to the medical community. This could be done
   by issuing instructions or letters to all physicians, citing Medicare restrctions on POVs.

3. Advise carrers to develop  and refer sanction recommendations to the OIG when carrers
   have identified physicians with patterns of excessive POV prescriptions.
" .




      HCFA COMMENTS

      The HCFA acknowledged the existence of inappropriate expenditures for POV s as reported in
      the study but did not agree to any specific dollar amount. The HCFA also agreed with our
      three recommendations by citing actions they have taken to resolve these problems. (See
      appendix B for text of comments and OIG' s response.
                             . . . . . . . ...         ....... ..           . .... . ....
                                                                                     . . . . .........
                                                                                               . . . . . . ...
                                                                                                             . . . . . .....
                                           . . . .. . . . . . . . . . . . . . . . . . . . . . . . .. .. .. .. .. .. .. . . . . .. .... .". . .. .. .. .. ...
                                                                                                                       ...
                                                                                                                       . .. ..... .. .. .. .. . .. .. .. .. .. ....




                                                          TABLE OF CONTENTS


EXECUTIVE SUMMARY. . . . .                                                                                                                       . . . . . . . . i


INTRODUCTION. . . . 


FINDINGS. . . . 


Direct Marketing Of POVs To Beneficiaries Is Generating Demand.                                                               . . . . . . . . . . . . . . . .4


            Beneficiares are takng initiative to obtan POVs ........................
           Suppliers ar aggrssively marketing their product . . . . . . . . . . . . . . . . . . . . . . . .4
           Physicians are playing a passive role in prescribing POVs . . . . . . . . . . . . . . . . . . .

Medicare Should Not Have Paid For A Majority OfPOVs In                                                        1986 . .

           Beneficiares ' phone responses apparntly reveal most did not qualify for
           POVs ............................................................
            Carer documents for most beneficiares fai to justiy                                                 appropriateness of
           reimbursement. . . 

           Weakess noted in carer claims review procedurs


RECOMMENDATIONS

APPENDIX- A: Cost Savings Projections. 

APPENDIX- B: HCFA General Comments and OIG Response. . . . . . . . . . . . . . 

         A representative of one carrier spotted an elderly woman, accompnied by her daughler, ma­
         neuvering a power-operated vehicle through the aisles of a shopping mall in a western city.
         The cart had a basket filled with packages and a smll sign on the rear announcing "Medi­
         care paid for me," followed by the name an phone number of the local supplier of medical
         equipment. This is only one of many techniques being used by manufacturers or suppliers
         to market power-operated vehicles.




                                         INTRODUCTION

PURPOSE

The purpose of this inspection was to determe the impact of beneficiar-oriented marketing
of power-operated vehicles (POVs) on Medcare reimbursement and to review the appropriate­
ness of Medicare payment.

BACKGROUND

Power-operated vehicles ar thre-wheeled battery operated vehicles that resemble small golf
car. Under its durable medical equipment provision , Medcar covers small , relatively light­
weight POV s that have a short turning radius and ar easily maneuverable in an individual'
home. This easy maneuverabilty is the primar          advantage     over electrc wheelchairs. Med­
care wil pay for electrc wheelchairs prescribed by the physician instead of            POVs when the se­
verity of the patient s condition requirs it for greater balance and safety.

Concerns in the Offce of Inspector General (OIG) about Medicare s reimbursement of POV s
emerged in 1987 when the OIG New York offce was alerted by a Medicar carer regarding
some abusive practices. As a result two carers in the New York ara completed a special pre­
payment review of POV claims during a 4-month period in 1987. The carer                  developed ques­
tionnaies which were  completed by physicians and made telephone calls to Medcar
beneficiares. Coverage denials resulted in most of these cases. In response to these fmdings
the OIG sent an issuance to carers, urging incrased surveilance of POV reimburements.

Medicare Coverage ofPOVs

Claims for POV s must meet the criteria that the Health Car Financing Administration
(HCFA) has set for all durable medical equipment:

      can withstand repeated use,
      is primarly and customarly used to serve medical puroses,
      is generally not useful to a person in the absence of ilness or injury, and
      is appropriate for use in the home.

All of these elements must be met in order for the equipment to be covered by Medicar.
The POV models covered by Medicare are small and relatively light-weight. Medicar does
not cover the larger POV models which are much heavier and have a grater turning radius.
The rationale is that such chairs ar used primaly outside the home and are generally useful
as a means of trsportation in the absence of an illness or injury. Another explanation for not
coverig such vehicles was that " the cycle chai might actually increase progr costs since
beneficiares might require one device for outside the home and another for use inside the
home. "



Accordig to Medicare POV coverage reuirments issued in 1978, a specialist in physical
medicine, orthopedic surgery, and neurology, and since 1988 rheumatology " must provide an
evaluation of the patient s medical and physical condition and prescribe the vehicle to assure
that the patient requires the vehicle and is capable of using it safely. " There is an exception to
the four-specialty requirement that applies when a Medicar carer " determines that such a
specialist is not reasonably available, e. , more than one day s round trp from the
beneficiar s home, or the patient s condition preludes such travel." In these cases, a pre­
scription from the beneficiar s physician (outside of the four specialty groups) can be
accepted.

Medicare also requires that the patient be eligible for a wheelchair (i. e., the patient would oth­
erwise be confined to a bed or chair) and that the patient be unable to operate a wheelchai
manually. These coverage requirements ar found in Section 60- 5 of the Coverage Issues
Appendix of the Medicar      arers Manual, which also states that the carer s " medical staff
wil review al claims for a power-operated vehicle, including the specialist s or other
physician s prescriptions and evaluations of the patient s medical conditions to insure that all
coverage requirements are met.

Reimbursement Trends

Claims submitted by suppliers under assignment ar paid at 80 percent of the allowable charge
recognize by Medicare. The beneficiar is then responsible for paying the 20 percent coin­
surance to the supplier. Suppliers who do not accept assignment can charge the beneficiar
the difference between their total charge and what Medicare allows.

Based on HCFA data for a 1 percent sample consisting of 102 beneficiares, tota Medicar
allowed charges for POV s can be projected to $13. 6 millon in 1986, with an average
allowance of $1, 330 per beneficiar. The HCFA reported from its Medicar Par B procedure
me that the total allowed charges for POVs were $12. 9 millon in 1986 which is statistically
comparable to the $13. 6 milion projection. Additional information from the procedure fie
shows a grdual increase from $9. 7 millon in 1985 to $12. 9 millon in 1986 to $13.3 milion
in 1987.

OBJECTIVES


   suppliers.
1. Describe the nature of beneficiar   and physician responses to   the marketing of POV s by


2. Identify types of POV beneficiares for whom reimburement may have been inappropriate.

3. Assess the carers ' procedures for implementing HCFA' s requirements for POV coverage
  and claims review.

METHODOLOGY

This inspection was designed and cared out in conjunction with the recent OIG inspetion
  Medicare Coverage for Seat Lif Chairs (OAI- 02- 88- 00100). The same methodology and
sampling procedurs were used for both studies. The fIrst was a national radom sample of
102 beneficiares from all carers, representing 1 percent of all Medicar payments for POVs
in calenda year 1986. Seventy-one of these beneficiares - or, in a few cases, their surivors
    were reached by telephone to determne how and why they requested a POV. They were
asked about their abilty to use a wheelchai manually, their need for a POV and whether they
had paid anything for it. Reasons for not contacting the remaining 31 individuals included the
following: beneficiares with no telephone listing did not respond to letters; others who were
deceased had no available surivor, or their surivor was not contacted; and some requested re­
cords had been purged or biled electronically and the beneficiar was not contacted.

Telephone interviews were conducted with 28 of the physicians for the 71 beneficiares, se­
lected on the basis of avaiabilty, to ascert their role in prescribing a POV for the patient.

The Medicare claims and physicians ' authorizations for 62 of the 71 beneficiares interviewed
were also reviewed by a physical therapist to assess the adequacy of documentation of the di­
agnoses and conditions which might justify the nee for a POV. Other analyses were made, in­
cluding a comparson of POV delivery dates with physician authorization dates.

The second sample , consisting of eight Medcar carers was originally selected for the study
on seat lift chais. It is a judgementa sample drwn from a universe of 53 carers nationwide.
Included were: Blue Cross and Blue Shield plans of Florida, Indiana, Massachusetts , Pennsyl­
vania, and Rhode Island, Traveler s Insurce Company of Minnesota, General American Life
of Missouri , and Prdential of New Jersey. The eight carers accounted for 32 percent of all
dollar allowed for   POV s in 1986.

Discussions were held with 22 managers and staf personnel at the carer level. To assess
each carer s POV claims review procedures, approximately 10 claims were randomly se­
lected from 1987 paid claims and reviewed on site at seven carers (one carer had only one
paid claim in 1986).



Discussions were also held with ' HCFA and carer offcials and non-sample beneficiares, and
other physicians and suppliers, bringing the total respondents contacted to 167.
                                           FINDINGS

I. Direct   Marketing ofPOVs to Beneficiaris is Generating Demand

Beneficiaries are taking initiative to obtain POVs

Beneficiares were initially asked how they fist leared about POVs. More than hal (57 per­
cent) of the 71 POV beneficiares contacted said they leared about POVs though television
and other advertising, including magazines, salespersons, mail brohures , and demonstrtions
at shopping mals. Thir-seven percent were told about POVs by famly, frends or neigh­
bors. Only 6 percent said they leared about POVs frm a doctor or other medcal personnel.

Beneficiares were next asked to indicate whose idea it was to obtain the POV. As shown in
figure 1 , thee- quarers of the POV beneficiares contacted said it was their own idea or their
famly s idea to get a POV. Another 6 percent said it was both their idea and their doctor
idea. Most of the remaiing beneficiares (15 percent) said it was the doctor s idea.

                              PATIENT RESPONSES:

                         WHOSE IDEA WAS IT TO GET A POV?


                                 FIGUR 1


                                                                    SelflFamiIy (76%)


                                                                    MD (15%)

                                                                    Self & MD (6%)


                                                             yL0    Oter (3%)




Suppliers are aggressively marketing their product

Some beneficiares descrbe suppliers ' tactics as aggrssive , such as salespersons showing up
at the door within minutes of a phone call from a patient, the withholding of information about
the diffculty of maneuvering or lifting the POV into a car, and implying that the POV would
not cost anything.

Thiry- four percent of the 71 beneficiares contacted said they were told they would not have
to pay anything for their POV.
                                                ,. 

                                                 ...           ........




Physicians are playing a passive role in prescribing POVs

A number of practices were noted which showed the physician s role to be a relatively passive
one. ' These include a  go along with it role in prescrbing the POVs, signing authorizations
after the vehicles have been delivered , feeling pressured by the patients or families to autho­
rize a POV, not following-up on patients ' use of the POVs and not having knowledge of Med­
care guidelines. As shown below in figure 2 , when the physicians contacted were asked
whose idea is was to obtan a POV, hal responded that the patients rather than the physician
had suggested the POY. Only 36 percent of the physicians said it was their idea.

                             PHYSICIAN RESPONSES:
                        WHOSE IDEA WAS IT TO ORDER A POV?

                                 FIGUR 2


                                                                          Patient (50%)


                                                                          MD (36%)


                                                               D Do'tknowC/%)
                                                                          Oter   C/%)




A review of the 1986 claims and authorization data showed that in one- third of the claims the
POV was delivered to the beneficiar before the authorization for it was signed by the physi­
cian. Since then , the Omnibus Budget Reconciliation Act (OBRA) of 1987 was enacted. It in­
cludes a provision prohibiting Medicar payment for durable medical equipment unless the
supplier has received a wrtten order from the physician before delivery of the item to the pa­
tient.

Several physicians in this study indicate that they received pressure from patients or their
famlies to prescribe the POV. One physician said:

        The patient asked me twice during appointments and kept insisting how useful it
       would be for him.. . and then I conceded! Patients see these advertisements and pres­
       sure you to get the equipment. If you don t sign the form , the patient moves on to an­
       other doctor.

           ..




Over half (53 percent) of the 28 physicians contacted said they did not know the Medicare
guidelines for POVs. Of special note: while 38 percent of the physicians outside the four spe­
cialties said they did not know the guidelines, 54 percent of the
                                                                  approved specialty physicians
said they did not know them. One physician, who did not know the POV guidelines, made the
following suggestion:



         Medicare criteria should be clearly explained more to the medical population by car­
       riers so the basis of ordering equipment could be better understood."

2. Medicare Should Not Have PaidforaMajori ofPOVs                                   in 1986.

Beneficiaries ' phone respoi1ses apparently reveal most did not qualify for POVs

Forty- four (62 percent) of the 71 beneficiares interviewed seem to have been inappropriately
reimbursed by Medicar for their POVs. This resulted in estiated overpayments totaling
$59, 162 (see appendix). Projecting this to the enti Medcar program in 1986 yields esti­
mated overpayments of $5. 9 milion. The responses of these individuals indicated that they
did not qualfy for reimbursement since they faied to meet either one or both of the two pri­
mar criteria, namely that the beneficiar cannot operate a wheelchair manually and the POV
must be appropriate for home use. Table 1 summzes the results of these interviews.


                                                           Table 1

                                         Reasons Why Reimbursement Appears
                                                      Inapproprie

           Reans Why Reimbursment                                 Number of Beneficiares

           Appes Inappropriate


           (a) Beneficiaes could
                operate a wheelchai manually
           (b) Beneficiares use the POV	                                    30**

               outdoors exclusively

           (c) Either (a) or (b)	                                           44 (=62% of71

                                                                            beneficiaes)


            .Based on a total of         71   benefciaries contacted
                These 30 cases include            beneficiaries who did both (a) and (b).



Twenty-two beneficiares told us that they had a wheelchair in their home which they could
operate manualy, when the POV was obtaied. They did not mention any pain or diffculty in
using it. In 6 of these 22 cases, prescribing physician certfication documents cited an inabil­
ity to operate a wheelchair manually. The carer had no apparent reason to question the valid­
ity of the physician s statement, absent conflcting information in carer fies. Thirt
beneficiares said that their POVs were used exclusively outdoors. Eight of these 30 benefici­
ares told us that they could both operate a wheelchai manually and used their POV outdoors
exclusively.
As some of the beneficiares noted, the POV s were too big or too heavy to use indoors. The
following are beneficiar responses on when and how they used their POVs (also called scoot­
ers).

         I used the (standrd)   wheelchair in   the house. If I go to the Mall,   I use the scooter.
         The scooter was better- it would allow her to go downtown. However, it was too
        heavy. She used the wheelchair up until a week before she died.
         The wheelchair was worn out. It was the reason I asked for a POV.. .I used the
        wheelchair inside and the scooter outside.

Only one carer had an authorization form signed by the physician which included a question
on whether the POV was for outside use only.

Ten beneficiares, at the time of the telephone interviews in the summer of 1988, said they
could wal without any assistance or with the assistance of a cane, a walker or crutches.

Carrier documents for most beneficiaries fail to justify appropriateness of
reimbursement

The appropriateness of reimburement for the sample beneficiares was also assessed by re­
viewing supplier clais and all documents signed by physicians including authorization
forms, medcal necessity forms, letters and prescription pad notations. Such claims or physi­
cian documents were avaiable for 62 of the 71 beneficiares interviewed. We looked speifc­
ally at documentation concerning diagnoses and condition to determine whether the patient
could propel a standard wheelchai manually, or had a need for a POV. Only some forms
signed by physicians addrssed the patient s abilty to operate a wheelchair manually. Thir­
nine of the 62 cases (63 percent) had a physician-signed document, indicating that the patient
could not maually operate a wheelchai. However, as note above, only 6 of these 39 cases
had been judged as inappropriately reimbured based just on the beneficiar report abilty
to use a wheelchair manually. In four of the six cases, where there was a contradiction be­
tween physician and beneficiar response, the evidence clearly supported the beneficiar
statement.

Some carers ' authorization forms reuested information    from the physician in areas such as
upper and lower extremity strength , or abilty to ambulate with or without assistance.

Many beneficiares in our sample were diagnosed with the following diseases or conditions:

        multiple sclerosis                                      muscular dystrophy
        rheumatoid arhrtis                                      os teoarhri tis
        cerebral vascular accident                              periphera neuropathy
        paraplegia                                              quadrplegia
        arriosclerotic hear disease                             congestive hear failure
        diabetes                                                cancer
        chronic obstrctive   pulmonar disease                   below- knee amputation
The records were reviewed by a physical therapist who was a member of the inspection team


tation.
and experienced in rehabiltation and evaluating patients for wheelchairs. Based on her re­
view, the 62 cases were divided into three categories, depending pn the adequacy of documen­


The fIrst category, with nine cases, dealt with those contaning adequate information to sup­
port the need for the POV. One patient, a bilatera below- knee amputee with severe periphera
vascular disease and poor upper body strngth clearly would appear to require a POV.

The second category included patients for whom it was likely that there was a nee for a POV,
but where more information was needed to support a positive decision (14 cases). Several
these were multiple sclerosis patients, who by the natur of the disease have weakess and
poor endurance and would likely benefit from a POV. However, there was no additional infor­
mation to indicate where and how much weakess the person had or whether a wheelchair
could be manualy operated. One case showed a person with diagnoses ofpolymyalgia
rheumatica, rheumatoid arhrtis, and     diabetes. An attached medcal note cited   limited abilty

to propel a wheelchair and indicated that the physician wante the POV to enable commu­
nityaccess. More documentation might clarfy this clai' s appropriateness. It should be
noted that only one of these 14 cases was judged inappropriate based solely on the
beneficiar s statement that he continued to use a wheelchai manually.

The third category consisted of those patients whose need was not clearly indica ed from the
less than adequate information available and more compellng evidence was necessar (39
cases). Several of these cases were patients who had a cerebra vascular accident with result­
ing hemiplegia. Additional evidence would be necessar to show that the person could not
propel a wheelchai with the unaffected hand and foot as is often done by hemiplegic patients.
Indication of perceptual and cognitive disabilty would also be helpful to show whether the
person could manually propel a wheelchai and also whether a POV could be safely used.
Some of the other diagnoses, such as low back pai, arhrtis, paraplegia or hip frcture would
not in themselves indicate inabilty either to ambulate or to propel a wheelchai manually.
However, in some of these cases additional information from the physician might support a
nee for a POV.

The results of this record review matched our fIndings based on the responses of these benefi­
ciares that reimbursement for a majority of beneficiares studied was lik ly to have been inap­
propriate.

Weaknes Noted     In   Carrier Claims    Review Predures

The key problem noted during the on-site visits to carers was the failure of most carers (six
of eight) to routinely utilze medical personnel to review all POV claims as reuired by the
Medcare Caers Manual.

Another problem noted was the lack of informtion in the carers ' fies for the claims OIG re­
viewed on site concerning the specialty of the prescribing physician. The authorizing physi­
cian must be practicing in one of four specialties or specific exception requirements must be
met. In 60 percent of these claims information was lacking on whether the prescribing physi­
cian met the specialty requirment and/or whether the exception criteria applied.

There was also no documentation in the fies of any of the carers visited that they had
checked to see if the physician specialty exception applied because the beneficiar was unable
to leave home, or because the specialist is more than 1 day s round trp from the beneficiar
home.
                                     RECOMMENDATIONS


     TO REDUCE INAPPROPRIATE PAYMENTS FOR POVs, HCFA SHOULD:



I. Evaluate,       and strengthen as needed, carrr implementaton    of Medicare coverage
  requirements and OBRA           1987 provisions to:

  a. use medcal staf to review each submitted POV claim for medical necessity,

  b. allow only      cert specialists to authorize these claims or cite the reasons for exceptions
     to this rule,

  c. ensure that payments ar made only for beneficiares whose medical and/or physical
     conditions render them unable to use a wheelchai manually and who need a POV for in­
     door use, and

  d. prohibit payment for durable medical equipment unless suppliers receive a wrtten order
     from a physician before the delivery of the item to the patient.


HCFA COMMENTS

Medicare Coverage Issues Manual , Par 3, Section 60- 5 released in Februar 1988 and Med­
care Carers Manual, Par 3, Section 4107. 6 released in December 1988 already provide for
each of these recommendations.


OIG RESPONSE

We question HCFA' s citing Medicare Coverage Issues Manual, Par 3, Section 60- 5, as a re­
sponse to our recommendation that HCFA evaluate and strengthen as needed carer implemen­
tation of Medicar coverage requirements. It was beause these Manual guidelines were not
being adequately followed by carers visited, that we made this recommendation.



2. Publicize Medicare coverage requirements to the medical community. This could be
   done by issuing instructions or letters to aU physicians, citing Medicare restrictions on
   POVs.
                                      RECOMMENDATIONS


      TO REDUCE INAPPROPRIATE PAYMENTS FOR POVs, HCFA SHOULD:



I. Evaluate,   and strengthen as needed, carrr implementation of Medicare coverage
   requirements and OBRA 1987 provisions to:

   a. use medical staf to review each submitted POV claim for medical necessity,

   b. allow only      cenai specialists to authorize these claims or cite the reasons for exceptions
      to this rule,

   c. ensure that payments are made only for beneficiares whose medical and/or physical
      conditions render them unable to use a wheelchair manually and who need a POV for in­
      door use, and

   d. prohibit payment for durable medical equipment unless suppliers receive a written order
      from a physician before the delivery of the item to the patient.


HCFACOMMENTS

Medicare Coverage Issues Manual , Par 3, Section 60- 5 released in Februar 1988 and Medi­
care Carers Manual , Par 3, Section 4107. 6 released in December 1988 already provide for
each of these recommendations.


OIG RESPONSE

We question HCFA's citing Medicare Coverage Issues Manual , Par 3, Section 60- 5, as a re­
sponse to our recommendation that HCFA evaluate and strengthen as needed carer implemen­
tation of Medicar coverage requirements. It was because these Manual guidelines were not
being adequately followed by carers visited , that we made this recommendation.



2. Publicize Medicare coverage requirements to the medical community. This could be
   done by issuing instructions or letters to all physicians, citing Medicare restrictions on
   POVs.
..




                                             APPENDIX A


                                   COST SAVINGS PROJECTIONS


     The data for this inspection were pulled from the 1986 HCFA Annual Data Base (BMA) and
     represent a 1 percent sample of al POV records for that year. One hundred and eighty-two re­
     cords were found. These records represented bils for 102 individuals. Accordng to an analy­
     sis of these bils, 44 of the beneficiares had overpayment charges totalling $59, 162. This is
     an average of $580 per beneficiar reviewed (stadad error of $79.48). The number of bene­
     ficiares in the universe with bils for POVs is estimate at 10, 200. With this information , it is
     estimate that there is approximately $5, 916, 204 (stadad error of $810, 699) in allowed over­
     payments in this population of beneficiares. At the 90 percent confidence level , the lower
     cutoff point of this estimate is $4 582 603 and the upper cutoff point is $7, 249, 805. The over­
     all precision of this estimate is 22. 5 percent.
                                      APPENDIX B



                 HCFA GENERAL COMMENTS AND OIG RESPONSE


The HCFA provided the following general comments on the draft report:

The OIG' s fmdings of inappropriate Medicar expenditures was based largely on telephone in­
terviews with beneficiares not on claims reviewed, developed and, where appropriate, denied
by carers. We do not believe that an evaluation which focuses on information solicite from
beneficiares provides an accurate assessment of carer claims processing effectiveness.


The OIG acknowledged that in 6 of 22 cases where beneficiares reportd they could operate a
wheelchai manually when the power operated vehicle was obtaned, physician documentation
cited an inabilty to manually operate a wheelchai. In these situations, carer medical review
staff would have had no reason to question the physicians s statement assuming other docu­
mentation relatig to the claim was consistent with the physician s certification statement.


We acknowledge that the OIG' s study identified the existence of inappropriate expenditues
for power operated vehicles. However, based on the focus of the review, we cannot agr
any specific dollar amount of unnecessar expenditures that would be projected nationally for
the period in question.

OIG RESPONSE

In response to HCFA' s comments that our review " was based largely on telephone interviews
with beneficiares not on claims reviewed,     developed and, where appropriate denied by car­
ers, " we would note that our statistically valid random sample of claims included a review of
all documentation as well as the conduct of telephone interviews. In the six cases cited by
HCFA where beneficiares reported they could operate a wheelchair manually when the POV
was obtained, even though the physician documentation stated otherwise, we assigned grater
probative value to the beneficiares ' information in four cases based on our consideration of
all available information and documentation.

We ar satisfied that our projection of inappropriate expenditures is based on proper sampling
techniques. We also do not believe that our projection of loss should be limited only to those
cases where the carers would have had reason to question physician statements, assuming
other documentation relating to the claim was consistent with the physician s certification
statement.
.-
